                                                                                         September 19, 2012
Memorandum

To:            Marcia McNutt
               Director, U.S. Geological Survey

               Eric Eisenstein
               Division Chief, Internal Control and Audit Follow-up, Office of Financial
               Management

From:          Hannibal M. Ware
               Regional Manager, Eastern Region

Subject:       Verification Review of Recommendations for the Evaluation Report, “Interior
               Lacks a Scientific Integrity Policy (WR-EV-MOA-0014-2009)”
               Report No. ER-VS-MOA-0004-2012

       The Office of Inspector General (OIG) has completed a verification review of the two
recommendations presented in the subject evaluation report. The objective of the verification
review was to determine whether the U.S. Department of the Interior implemented our
recommendations. We concluded that both recommendations have been resolved and
implemented.

Background

        Our April 2010 evaluation report, “Interior Lacks a Scientific Integrity Policy,” contained
two recommendations concerning the absence of a Department-wide policy on scientific
integrity and the lack of a requirement to track allegations of scientific misconduct.
Recommendation 1 was for the Secretary to develop such a policy, and recommendation 2 was to
designate a responsible official to guide that policy’s development and implementation.

       In a memorandum dated July 2, 2010, the Department concurred with both
recommendations, and resolved recommendation 2 by assigning Dr. McNutt to guide the
development and implementation of a scientific integrity policy. On July 7, 2010, OIG
considered recommendation 2 resolved and implemented, and referred the remaining
recommendation to the Department’s Office of Policy, Management and Budget (PMB) for
tracking. In a memorandum dated December 3, 2010, PMB reported that recommendation 1 had
also been implemented.




                          Office of Audits, Inspections, and Evaluations | Herndon, VA
Scope and Methodology

      The scope of this review was limited to determining whether the Department
implemented the two recommendations. To accomplish our objective, we reviewed
documentation of communication in the audit file as well as applicable Secretarial Orders and the
Departmental Manual (DM).

        We did not visit sites or conduct fieldwork to determine whether the underlying
deficiencies that were initially identified have actually been corrected. As a result, this review
was not conducted in accordance with generally accepted Government auditing standards issued
by the Comptroller General of the United States, or with the quality standards for inspections of
the Council of the Inspectors General on Integrity and Efficiency.

Results of Review

       The Department has implemented both of our recommendations as indicated by their
closure:

       Recommendation 1: Develop and implement an Interior-wide comprehensive scientific
       integrity policy that addresses required elements of the OSTP [White House Office of
       Science and Technology Policy] scientific misconduct policy, to include provisions for
       both internal and external scientific research, applicable to all agents, appointees,
       employees and contractors involved in researching and publishing scientific results of
       any kind, include a misconduct allegation reporting requirement, and a range of
       disciplinary actions.

       Action Taken: We considered recommendation 1 resolved and implemented based on a
       memorandum dated December 3, 2010, stating that the Secretary had issued a Secretarial
       Order that addressed the required elements of the OSTP policy, including those
       specifically named in the recommendation. Deputy Secretary David J. Hayes was named
       as the official in charge of implementing the Order, including the execution of a chapter
       in the DM.

       We confirmed the full implementation of this recommendation by reviewing Secretarial
       Order number 3305, which was issued September 29, 2010, and remained in effect until
       the new DM chapter, 305 DM 3, was enacted on January 28, 2011. After reviewing 305
       DM 3, titled “Integrity of Scientific and Scholarly Activities,” we determined that it
       covers all provisions enumerated in recommendation 1.

       Recommendation 2: Designate a responsible official to guide the development and
       implementation of an Interior-wide scientific integrity policy and to oversee the bureaus
       implementation and application of the policy.

       Action Taken: We considered recommendation 2 resolved and implemented based on a
       memorandum dated July 2, 2010. In it, the Department concurred with our
       recommendation and designated Dr. McNutt as the official charged with guiding the


                                                2
       development and implementation of an Interior-wide scientific integrity policy and
       overseeing the bureaus’ implementation and application of the policy.

       We confirmed the full implementation of this recommendation by verifying the
       Department’s list of bureau scientific integrity officers on its Web site, including the
       overall Departmental scientific integrity officer, who is picked by the Secretary. This
       officer oversees the ongoing application of the scientific integrity policy, which satisfies
       all conditions mentioned in the recommendation.

Conclusion

       The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented. We informed
Department officials of the results of this review at an exit conference on September 12, 2012.
The officials agreed with our results.


cc:    Rebecca Bageant, Audit Liaison Officer, U.S. Geological Survey
       Alexandra Lampros, Audit Liaison Officer, Office of Financial Management
       Nancy Thomas, Audit Liaison Officer, Office of the Secretary
       Suzette Kimball, DOI Scientific Integrity Officer, U.S. Geological Survey
       Sharon Blake, Audit Liaison Officer, Office of Financial Management, U.S. Geological
       Survey




                                                 3
